No. 20-1724

3u Zbe

btate#

'upreme Court of the
•
DAVID JAMES MURPHY,

Petitioner,
V.
CITIGROUP GLOBAL MARKETS, INC.,
CITICORP SECURITIES SERVICES, INC.,
AND OKAN PEKIN,
Respondents.

•
On Petition For A Writ Of Certiorari
To The Supreme Court Of The State Of New York,
Appellate Division, First Department

•
PETITION FOR REHEARING
FROM ORDER DENYING
PETITION FOR WRIT OF CERTIORARI

•
DAVID JAMES MURPHY
Pro Se
57 Wallaroy Road Woollahra, NSW,
Australia 2025
+61 450 134 545
david.james.murphy@hotmail.com
OCTOBER 7, 2021

1

TABLE OF CONTENTS
Page
Petition for Rehearing

1

Grounds for Rehearing

1

Conclusion

6

Certification

7

TABLE OF AUTHORITIES
CASES
County of Morris v. Fauver, 153 N.J. 80, 707 A.2d
958 (Sup. Ct. N.J. 1998)

2

Kaplan v. Keith, 60 Ill. App. 3d 804, 377 N.E.2d
279 (Ill. App. Ct. 1978)

2

Lummus Company v. Commonwealth Oil Refining Company, 280 F.2d 915 (1st Cir. 1960)

4

Noble Capital Group, LLC v. US Capital Partners, Inc., No. 20-50721, 2021 WL 3477481
1, 4, 5
(5th Cir. Aug. 6, 2021)
Rent-a-Center, West, Inc. v. Jackson, 561 U.S. 63
(2010)

2, 3

Ripley v. Int. Rys. of Cent. Am., 8 N.Y.2d 430 (Ct.
App. 1960)

2

Straits Financial LLC v. Ten Sleep Cattle Co.,
900 F.3d 359 (7th Cir. 2018)

2

STATUTES
Federal Arbitration Act, 9 U.S.C. §§ 1-16

1

1
PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.2, Petitioner,
David James Murphy, respectfully petitions for a rehearing of the order of October 4, 2021 denying Petitioner's Petition for a Writ of Certiorari.
♦

GROUNDS FOR REHEARING
In the present action, Petitioner challenged the
enforceability of an arbitration agreement on the
grounds of fraudulent inducement and breach. The arbitration agreement contained a delegation clause and
Petitioner moved to compel arbitration of arbitrability
thereunder. That motion was denied.
In Petitioner's Petition for a Writ of Certiorari,
dated May 19, 2021, he argued that in similar circumstances, a party accused of fraudulently inducing an
arbitration agreement would be permitted to enforce
the delegation clause. It did not take long for Petitioner
to be proven correct.
In Noble Capital Group, LLC v. US Capital Partners, Inc., No. 20-50721, 2021 WL 3477481 (5th Cir.
Aug. 6, 2021), there was a contract containing arbitration and delegation clauses. The plaintiff claimed
the arbitration clause was fraudulently induced. The
defendant successfully compelled arbitration of that
challenge to arbitrability.
In both of these FAA cases, the plaintiff claimed an
arbitration agreement had been fraudulently induced.

2
In one, the party accused of fraudulent inducement
was permitted to enforce the delegation clause, in the
other, the party alleging fraudulent inducement was
prevented from doing so.
This is the least just, most egregious possible approach to deciding who decides arbitrability and arises
from a failure by the courts below to correctly apply a
simple legal principle — severability.
In Rent-a-Center, West, Inc. v. Jackson, 561 U.S. 63,
71-72 (2010), this Court held that a delegation clause
is a "written provision . . . to settle by arbitration a controversy" and is severable from the "rest of the agreement to arbitrate claims."
As a general rule, if a contract is rescinded, no
terms in that contract can be enforced. However, if a
contract is severable, rescission of one portion of the
contract does not prevent either party from enforcing
the other, severed portion. See Ripley v. Int. Rys. of
Cent. Am., 8 N.Y.2d 430, 437 (Ct. App. 1960), quoting
from Black on Rescission and Cancellation (2d ed., Vol.
3 § 585). Cf. Kaplan v. Keith, 60 Ill. App. 3d 804, 808,
377 N.E.2d 279 (Ill. App. Ct. 1978) ("the rule that rescission of a contract must be in toto does not apply
to a contract of which the parts are so severable as
to form independent contracts"); County ,of Morris v.
Fauver, 153 N.J. 80, 97, 707 A.2d 958 (Sup. Ct. N.J.
1998) ("Only where a contract is severable into different transactions may one of those separate transactions be avoided."); and Straits Financial LLC v. Ten
Sleep Cattle Co., 900 F.3d 359, 372 (7th Cir. 2018).

3
In the present action, Petitioner relied on the severability of the delegation clause. He commenced this
action in court, because he claims not to be bound by
the arbitration agreement. However, asserting a right
to rescind an arbitration agreement is not a bar to enforcing a delegation clause therein. When Respondents
argued Petitioner's claims were subject to mandatory
arbitration, and should have been brought in an earlier
arbitration, Petitioner promptly moved to compel arbitration of arbitrability. The courts below denied that
motion, saying it was inconsistent with Petitioner's
claim not to be bound by the arbitration agreement.
During oral argument before the court of first instance, Justice Hagler said: "It seems inconsistent
where on the one hand you are pressing the court to
take it [arbitrability] from this Court, and on the other
hand, you take the vehement decision that you correctly filed this action in [the] Supreme Court." Justice
Hagler said Petitioner was trying to "have your cake
and eat it the same way." The First Department agreed.
"How can you claim that it is not within the [arbitration] agreement, but that they [arbitrators] decide arbitrability? It's inconsistent. This is for the court to
decide."
In denying Petitioner the right to enforce the delegation clause, because he claimed a right to rescind
the contract containing it, the courts below treated the
delegation clause as non-severable. That is inconsistent
with Rent-a-Center, 561 U.S. 63 (2010) and has farreaching implications.

4
It means a plaintiff challenging the enforceability
of an arbitration agreement can never ensure those
challenges are arbitrated. On the First Department's
reasoning, if a plaintiff, like Petitioner, submitted his
challenges to arbitrability directly to arbitration, the
defendant could stay that proceeding. To resist such a
stay, the plaintiff must rely on the delegation clause,
but the First Department considers such reliance inconsistent with the plaintiff challenging the enforceability of the arbitration agreement.
In contrast, if a plaintiff attempts to challenge arbitrability in court, the defendant can compel arbitration of arbitrability on the basis that the delegation
clause is severable. Noble Capital Group, LLC v. US
Capital Partners, Inc., No. 20-50721, 2021 WL 3477481
(5th Cir. Aug. 6, 2021).
Therefore, all challenges to the enforceability of an
arbitration agreement, containing a delegation clause,
will be determined in the forum chosen by the party
resisting such challenges. The delegation clause is
treated as severable when one party seeks to enforce it
and non-severable when the other party does so. This
is contrary to law and unjust. It "prevent [s] even the
injured party who wishes to arbitrate from doing so";
and it allows the party accused of misconduct to
"take the plaintiff's claim from the arbitrator" (Lummus Company v. Commonwealth Oil Refining Company, 280 F.2d 915, 924 (1st Cir. 1960)), or force that
claim to arbitration, as it chooses. As a result, challenges to arbitrability will be decided in the forum
where they are least likely to succeed.

5
In addition, if considerations of justice and the
consistent application of the law do not move this
Court, perhaps judicial efficiency will. Some challenges
to arbitrability face better prospects of success in court,
some in arbitration. If a delegation clause can be enforced by both parties, almost all challenges to arbitrability will be decided in arbitration. However, if a
delegation clause can only be enforced by one party,
many challenges to arbitrability will be decided in
court.
I am a pro se litigant living in Australia, relying
primarily on google.com and leagle.com for my research. I worked out that a party can challenge the enforceability of an arbitration agreement and enforce
the delegation clause therein, because that clause is
severable. Yet the courts denied my motion to compel
arbitration of arbitrability out of hand.
Justice Hagler wrote a 26-page opinion, but devoted only half a page to analyzing Petitioner's motion
to compel. The First Department declared from the
bench that arbitrability was for the court to decide and
did not address the issue further in its written opinion.
These courts erred badly without the slightest inkling
they were doing so. If not corrected, this error will be
repeated.
Finally, this petition warrants a response and, with
due respect, one should be requested. Respondents
will have nothing of merit to say in defense of the First
Department's reasoning. That decision is too clearly
wrong at law, the comparison with Noble, No. 20-50721,

6
2021 WL 3477481 (5th Cir. Aug. 6, 2021) too outrageously unjust to be defended.
♦

CONCLUSION
For the foregoing reasons, and those stated in the
Petition for a Writ of Certiorari, the Court should grant
rehearing, grant the Petition for a Writ of Certiorari,
and review the judgment below.
Respectfully submitted,
DAVID JAMES MURPHY
Pro Se
57 Wallaroy Road Woollahra,
NSW, Australia 2025
+61 450 134 545
david.james.murphy@
hotmail.corn
OCTOBER 7, 2021

7
CERTIFICATION
I hereby certify that this Petition for Rehearing is
presented in good faith and not for delay and is restricted to the grounds specified in Rule 44.2.
Respectfully submitted,

DAVID JAMES MURPHY

